               OFFICE OF INSPECTOR GENERAL


                FINANCIAL MANAGEMENT SYSTEM &
                    COMPLIANCE EVALUATION
                            OF THE


       DETROIT SYMPHONY ORCHESTRA HALL
                                           Detroit, MI

                                  Report No. SCE-10-03
                                     August 5, 2010




                                  REPORT RELEASE RESTRICTION

In accordance with Public Law 110-409, The Inspector General Act of 2008, this report shall be posted on
the National Endowment for the Arts (NEA) website not later than three (3) days after it is made publicly
available with the approval of the NEA Office of Inspector General. Information contained in this report
may be confidential. The restrictions of 18 USC 1905 should be considered before this information is
released to the public. Furthermore, information contained in this report should not be used for
purposes other than those intended without prior consultation with the NEA Office of Inspector General
regarding its applicability.
                                       INTRODUCTION


BACKGROUND

Detroit Symphony Orchestra, Inc. (Orchestra) was founded in 1914. The Orchestra is dedicated
to bringing to the stage the highest quality of artistic performance and educational programming.

OBJECTIVE AND SCOPE

The objective of this financial management system and compliance evaluation by the National
Endowment for the Arts (NEA) Office of Inspector General (OIG) is to determine whether the
organization’s financial management system and recordkeeping complies with the requirements
established by the Office of Management and Budget (OMB) and NEA’s General Terms and
Conditions for Grants and Cooperative Agreements to Organizations (General Terms). The
evaluation was conducted in accordance with the President’s Council on Integrity and Efficiency
Quality Standards for Inspections, as applicable.

PRIOR AUDIT COVERAGE

During the past five years, the NEA Office of Inspector General has not issued any audit reports
on Federal grants awarded to the Orchestra. As of our site visit October 9, 2008, the most recent
issued independent auditor’s report on the financial statements of the Orchestra was for the year
ended August 31, 2007. The audit was conducted by Plante & Moran, PLLC, which issued an
unqualified (clean) opinion. The Orchestra was not subject to the audit requirements of OMB
Circular A-133.

                             RESULTS OF EVALUATION
For selected Grant No. 06-5100-8124, our evaluation concluded that the Orchestra did not
accurately report expenditures on its Financial Status Report (FSR). In addition, the Orchestra
did not maintain personnel activity reports (time and effort) and did not have the required
Section 504 self-evaluation on file as required. Details are presented in the following narrative.


FINANCIAL MANAGEMENT

REPORTED EXPENDITURES

The Orchestra did not report actual expenditures on its FSR to the NEA. The amount reported
on the FSR was $250,370. However, expenditure listings provided by the Orchestra showed
costs totaling $112,215. The NEA Instructions for Completing the Financial Status Report and
General Terms stated that organizations are to:

   Indicate total actual project outlays (total funds spent minus any refunds) within the period of
   support indicated in your award letter or as amended.

                                                                                                      1
We are recommending the Orchestra develop and implement written procedures to ensure that
actual expenditures are reported on its Federal Financial Report1 (FFR) and include only those
amounts that are allowable per the approved budget, OMB Circulars and NEA General Terms.


EXPENSES NOT INCURRED IN THE GRANT PERIOD

The Orchestra included $5,381 of costs incurred prior to the grant period on its final FSR. The
NEA Instructions for Completing the Financial Status Report and General Terms stated that:
      All project activities and the commitment of project funds must take place within the period of
      support set out in your award document.

We are recommending the Orchestra develop and implement written procedures to ensure that
only expenditures for the specific grant period are reported on its FFRs and Requests for
Advance/Reimbursement.


PERSONNEL ACTIVITY REPORTS

The Orchestra did not maintain personnel activity (time and effort) reports. At the time of the
award, personnel activity reports were required for all employees whose salaries and fringe
benefits are charged, in whole or in part, to either the award or the matching funds if the award is
$50,000 or more. This requirement is mandated by OMB and is detailed in NEA’s General
Terms. A sample personnel activity report is also provided in the General Terms.

As a result of not maintaining personnel activity reports, we are questioning salaries and fringe
benefits totaling $76,682. The Orchestra did not meet the matching requirements without
including the questioned salaries and fringe benefits. Therefore, the Orchestra should provide
documentation to support the questioned salary and fringe benefit costs of $76,682 claimed
under the grant. Without additional documentation a potential refund may be due to the NEA.

We are recommending the Orchestra develop and implement written procedures to ensure that
personnel activity reports are maintained for employees whose salaries are charged, in whole or
in part, to future grant awards that are $50,000 or more.




1
    Formerly Financial Status Report (FSR).

                                                                                                        2
INADEQUATE DOCUMENTATION

The Orchestra could not provide adequate support documentation for $11,050 of costs reported
as total outlays on its final Financial Status Report. The NEA Instructions for Record Retention
state:

      “You must maintain financial records, supporting documents (such as cancelled checks, invoices,
      contracts, travel reports, donor letters, in-kind contribution reports, and personnel activity reports),
      statistical records, and all other records pertinent to an award consistent with the provisions outlined
      in OMB Circular A-110, Section 53, or the “Common Rule” Section 1157.42, as applicable. Generally,
      the retention period is three years from the date the final Financial Status Report is filed.”

We are also recommending that the Orchestra develop and implement written procedures to
ensure that supporting documentation for all expenditures is maintained.

Based on the findings above, we are questioning and reducing costs claimed under the grant by
$93,1132, resulting in allowable expenditures of $19,102. Based on allowable expenditures, the
Orchestra did not meet its one-to-one matching requirement. A potential refund of $45,449 may
be due without additional documentation for $90,898 of the questioned cost.

SECTION 504 SELF-EVALUATION
The Orchestra did not have a Section 504 self-evaluation on file. As noted in NEA’s General
Terms and Conditions for Grants and Cooperative Agreements to Organizations, “A Section 504
self-evaluation must be on file at your organization.” A Section 504 Self-Evaluation Workbook,
which can be completed online, is available at www.arts.gov/about/504workbook.html.

Section 504 of the Rehabilitation Act of 1973, as amended, provides for equal opportunity to
enter facilities and participate in programs and activities. It does not require that every part of
every facility or program be accessible. The important considerations are that individuals with
disabilities have the same opportunities in employment, the same opportunities to enter and
move around in facilities, the same opportunities to communicate and the same opportunities to
participate in programs and activities as non-disabled people. Further, it is important to offer
employment, programs, and services in settings that are integrated rather than to segregate
individuals with disabilities with special programs.

We are recommending the Orchestra conduct a Section 504 self-evaluation to ensure compliance
with the Rehabilitation Act of 1973, as amended.




2
  This amount reflects the difference in the total outlays reported on the FSR minus the presented expenditures plus
unallowable/questioned costs: $112,215-($5,381+$87,732) = $19,102.

                                                                                                                   3
EXIT CONFERENCE
An exit conference was held with the Orchestra officials on October 9, 2008 with a follow-up
telephone call on July 15, 2010. They concurred with our findings and recommendations.


                               RECOMMENDATION
We recommend that the Orchestra:


   1. Develop and implement written procedures to ensure that actual expenditures are
      reported on its FFR and include only those amounts that are allowable per the approved
      budget, OMB Circulars and NEA General Terms.

   2. Develop and implement written procedures to ensure that only expenditures for the
      specific grant period are reported on final FFR and Requests for
      Advance/Reimbursement.

   3. Develop and implement written procedures to ensure that individual personnel activity
      reports are maintained for employees whose salaries are charged, in whole or in part, to
      future grant awards that are $50,000 or more.

   4. Develop and implement written procedures to ensure that supporting documentation for
      all expenditures is maintained.

   5. Provide additional documentation to support the questioned costs (See Attachment 1)
      reported on the Final Status Report. Based on our review of the documentation provided,
      we will determine if any refund is due to the NEA. Without additional documentation,
      the potential refund is $45,449 under this grant.

   6. Conduct a Section 504 self-evaluation to ensure compliance with the Rehabilitation Act
      of 1973, as amended. (A copy of this completed document will be provided to the NEA’s
      Civil Rights/EEO Office.)




                                                                                                 4
                                                                      Attachment 1
                             Detroit Symphony Orchestra Hall
                                 Grant No. 06-5100-8124
                                    6/1/2006 – 5/31/2007
Total Outlays                                                            $112,215
Less: Unallowable Costs

 Expenditures outside of grant period                                      (5,381)

 Guest Artists                                             (2,181)
    Wilkins                                       514
    Oundjian                                      214
    Jarvi                                        1453

 Tickets                                                   (3,200)
     Wigglesworth                                 800
     Davis                                        800
     Wilkins                                      800
     Midori/Jarvi                                 800

Subtotal Allowable Costs                                                  106,834

Less: Questioned Costs

 Salaries & Wages                                                         (76,682)

 Inadequate Documentation                                                 (11,050)

    Expenses paid directly:                                (1,760)
    DSA – Achiever’s Ladies Ens                   300
    DSA – Jazz Combo                              200
    DSA – fee for Super Saturday                  200
    Joseph Crachiola                              200
    DSA – rental fee                              860

    Payroll items:                                         ( 3,720)
    Teaching & Honorarium – Feb. – Mar. 07

    From Patron Edge:                                      (5,570)
    DSA Comp tickets to Motown Magic            2,820
    DSA use of DSO box office                   2,750


Total Allowable Costs                                                     $19,102




                                                                                 5
                                                              Attachment 2
                           Detroit Symphony Orchestra Hall
                            Calculation of Potential Refund
                               Grant No. 06-5100-8124



Total Costs Claimed                                             $112,215
Less: Unallowable/Questioned Costs                                (93,113)
Total Allowable Costs                                              19,102
Less: NEA Share of Allowable Costs                                  (9,551)
Matching Amount                                                      9,551

Amount Disbursed                                                  55,000
Less: NEA Share of Allowable Costs                                 (9,551)
Potential Refund                                                 $45,449




                                                                          6
